Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grantsto the Kankakee, Illinois Police Department
GR-50-00-011January 21, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Kankakee, Illinois, Police Department (Kankakee PD).  The purpose of the grants is to enhance community policing.  The Kankakee PD was awarded a total of $825,000 to hire 11 new police officers.

We reviewed the Kankakee PD's compliance with seven essential grant conditions.  We found the grantee's budgeting, hiring practices, matching fund provisions, community policing activities, and retention planning to be acceptable.  However, we found weaknesses in other areas as identified below.  As a result, we question $3,750 and recommend an additional $150,000 be put to better use.1

The grantee received excess reimbursement of $3,750 due to an overpayment received from the Office of Justice Programs.  
	The Kankakee PD will not be able to hire all six officers funded by the second Universal Hiring Program supplement; therefore, $150,000 could be put to better use.
	Several status reports were either not accurate, not timely, or not filed.  

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.



Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.